No.
In the Supreme Court of the United States

ADAMS JOEL FORTY-FEBRES, a/k/a Adams Forty-Febres,
PETITIONER
v.
UNITED STATES,
RESPONDENT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Adams Joel Forty-Febres herein hereby very respectfully requests
leave to file the enclosed petition for writ of certiorari without prepayment of costs,
to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in
the following courts: (1) The U.S. District Court for the District of Puerto Rico; and
(2) The U.S. Court of Appeals for the First Circuit.
Petitioner has previously been assigned counsel under the guidelines of
Criminal Justice Act of 1964 pursuant to 18 U.S.C. § 3006A and as a consequence,
no affidavit or declaration in support of this motion has been thereof included
pursuant to Rule 39(1) of the Rules of the Supreme Court.

1

RESPECTFULLY SUBMITTED.
In San Juan, Puerto Rico, on December 20th, 2020.

/s/ Ovidio E. Zayas-Pérez
Ovidio E. Zayas-Pérez, Esq.
U.S.C.A. - First Cir. Bar No. 1100397
PMB # 387, P.O. Box 194000,
San Juan, P.R. 00919-4000
Tel. No. (787) 754-6715
E-Mail: ovidiozayasperez.com

2

